HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Health Resources and Services Administrations Award Process for a
Contract With Collaborative Fusion, Inc.," (A-03-06-00546)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of Health Resources and Services
Administrations Award Process for a Contract With Collaborative Fusion, Inc.," (A-03-06-00546)
June 8, 2007
Complete
Text of Report is available in PDF format (83 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit is one of several reviews of procurements by the
Health Resources and Services Administration (HRSA)
and other components of the Department of Health and Human Services (HHS) in
response to Hurricanes Katrina and Rita in 2005.
The Federal Acquisition
Regulation (FAR) and the Health and Human Services Acquisition Regulation (HHSAR)
provide, among other things, that HHS agencies award each contract to a
responsible party and document compliance with requirements for full and open
competition and the determination that the price was fair and reasonable.
As part of HHSs hurricane relief operations, HRSA awarded
a contract to Collaborative Fusion, Inc. (Collaborative
Fusion).  The contract obligated Collaborative Fusion to provide assistance to
HRSA and the States in setting up a temporary health professional volunteer
registry.  Our objective was to determine whether HRSA complied with FAR and
HHSAR requirements during the award process involving Collaborative Fusion.
HRSA complied with the requirements.